No. 21IN THE

Supreme Court of the United States
MONSANTO COMPANY,
Petitioner,
v.
EDWIN HARDEMAN,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I, Seth P. Waxman, a member of the
bar of this Court, certify that the accompanying Petition for a Writ of Certiorari
contains 8,995 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
Executed on August 16, 2021.

SETH P. WAXMAN
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Avenue NW
Washington, DC 20006
(202) 663-6000
seth.waxman@wilmerhale.com

